No. _________

In the Supreme Court of the United States
MIKE BROWN, ACTING-WARDEN, PETITIONER
v.
ERVINE DAVENPORT
ON PETITION FOR A WRIT OF
CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
CERTIFICATE OF COMPLIANCE
Attorney for Petitioner Warden Mike Brown, hereby certifies that the foregoing Petition complies with the type-volume limitation of Supreme Court Rule
33.1(g)(i), in that the word-processing system used to prepare the brief indicates that
the brief contains 7,049 words.
Respectfully submitted,
Dana Nessel
Michigan Attorney General
/s/ Fadwa A. Hammoud
Fadwa A. Hammoud
Solicitor General
Counsel of Record
P.O. Box 30212
Lansing, Michigan 48909
HammoudF1@michigan.gov
(517) 335-7628
Jared Schultz
Assistant Attorney General
Criminal Trials & Appeals
Division
Attorneys for Petitioner

